                                  -        -          -        -               -        -      -




                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                       ACTION MEMORANDUM

                                                                                   b a t e : 2113/02


11   Subject: Closeout                                                                          Page 1 of 1


          On              , we received an authorship complaint. Specifically, it was alleged that a post-
          doctoral fellow (~esearcher')prepared two cDNA libraries while employed in subject's2
          laboratory, and that Subject later submitted the resulting DNA sequences to GenBank without
          providing authorship credit. The research was supported under an NSF award3.

          The matter was opened for preliminary inquiry on              After deteni?ining that the allegation
          was supported by information, we closed the preliminary inquiry and opened the matter for
          formal inquiry on                   . We then identified the GenBank sequence citations and
          verified that they listed Subject as lead author and did not list Researcher as a co-author. On
          December 27, we wrote to Subject informing him of the allegation andlasking him to describe
          Researcher's responsibilities in his laboratory, the results of his research, and how authorship
          was determined on the sequences submitted to GenBank. Subject explained that Researcher left
          the lab after his contract was not renewed, and that a 'rescue' team later resequenced the data.
          The resulting sequences were submitted to GenBank with all team members listed as authors.
          Subject supported his explanation with documentation.

          Subject has provided a satisfactory and credible explanation for the omission of Researcher's
          name from the GenBank citations. Our inquiry has failed to uncover substantive evidence of
          intellectual theft or other serious deviation from accepted practices. Therefore, this case is closed
          and no further action will be taken.




              [redacted]
          2
              [redacted]
              [redacted]
